SUPREME

SAUL

IN
THE
COURT OF THE UNITED

STATES

MANGUAL-CORCHADO
PETITIONER;

v.

THE

UNITED

STATES
RESPONDEN T(S)

PROOF

0 F

SERVICE

I, SAUL MANGUAL-CORCHADO, DOES SO SWEAR or declare that on
this date of September 14, 2020; as required by the Supreme
Court Rule 29, that I, have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT
OF CERTIOARI on each party to the above proceeding or that
party's counsel, and on every other person required to be
served, by depositing an envelope containing the above as
listed documents in the United States mail properly addres-'
sed to each of them and with first-class postage prepaid, or
by delivery to a third-party commercial carrier for delivery
within 3 calender days.
The name and address of those served are as follows:

I declare under the penalties of perjury that the foregoing
is true, correct and correct.
Executed on this: 14t’n day of September of 2020
s/ MR. SAUL MANGUAL-CORCHADO
MR. SAUL MANGUAL-CORCHADO
30

